 Report on Internal Controls Over
      Performance Measures
Report Number: A050262/B/F/F06002
        November 8, 2005
We conducted this review in accordance with generally accepted government
auditing standards, as well as the provisions set forth in the Office of
Management and Budget Bulletin No. 01-02, Audit Requirements for Federal
Financial Statements, related to performance measures.

Results of Audit

The internal controls designed by the OCFO over GSA’s performance measure
data reported in the Management Discussion and Analysis Section of the
Agency’s Fiscal Year 2005 Performance and Accountability Report are operating
effectively.

In Fiscal Year 2005, GSA Order CFO 2170.1, “Performance Measurement Data
Verification and Validation Procedures,” became effective, requiring a cyclical
review of the performance measure data reported by each Service and Staff
Office. Our review found that in accordance with this Order, the OCFO
performed and documented the required review of performance measure data,
and that the conclusions therein were adequately supported.

Furthermore, during our Fiscal Year 2004 Report on Internal Controls Over
Performance Measures (A040226/B/F/F0002), we reported that the OCFO had
hired a consultant to perform a review of the process used to verify and validate
the data supporting the Agency’s performance measures. The consultant’s
review was completed during Fiscal Year 2005, and a report detailing
recommendations for improvement was provided to the OCFO. The OCFO has
taken these recommendations into consideration and implemented them
accordingly. This review represents an additional step taken to improve the
adequacy of the internal controls over GSA’s reported performance measures.




                                       2
                       Report on Internal Controls Over
                            Performance Measures
                      Report Number: A050262/B/F/F06002
                              November 8, 2005


Report Distribution                                       Copies

Acting Administrator (A)                                     3

Chief Financial Officer (B)                                  3

Audit Follow-Up and Evaluation Branch (BECA)                 1

Assistant Inspector General for Auditing (JA)                2

Assistant Inspector General for Investigation (JI)           1




                                         3
